Report No. D-2009-042              January 16, 2009





     Hiring Practices Used To Staff the Iraqi 

              Provisional Authorities

Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and
requests can also be mailed to:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
C.F.R.                        Code of Federal Regulations
CPA                           Coalition Provisional Authority
DA&M                          Director of Administration and Management
DCC-W                         Defense Contracting Command-Washington
IG                            Inspector General
NSPD                          National Security Presidential Directive
OPM                           Office of Personnel Management
ORHA                          Office of Reconstruction and Humanitarian Assistance
SF                            Standard Form
SOFIA                         Support Our Friends in Iraq and Afghanistan
U.S.C.                        United States Code
USD(P)                        Under Secretary of Defense for Policy
USD(P&R)                      Under Secretary of Defense for Personnel and Readiness
WHLO                          White House Liaison Office
WHS                           Washington Headquarters Service
                                 INSPECTOR GENERAL 

                                DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                              ARLINGTON, VIRGINIA 22202-4704 





                                                                                     JAN 1 6 2009
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR POLlCY
               UNDER SECRETARY OF DEFEN E FOR PERSONNEL
                AND READINESS
               SPECIAL ASS ISTANT TO THE SECRETARY OF DEFENSE
                 FOR WH ITE HOUSE LIAISON
               DIRECTOR, ADMIN1STRAT10N AND MANAGEMENT

SUBJECT: Hiring Practices Used To Staff the Iraqi Provisional Authorities
         (Report No. 0·2009·042)


We arc providing this report for review and comment. We considered client comments
when preparing the final report. We reissued the draft report to provide a complete
response 10 the Senators' concerns and give the clients an opportunity to comment. The
reissued draft report incorporated the audit results and answers to specific questions posed
by Senate staffers.

DoD Directive 7650.3 requires thai all recommendations be resolved promptly. We
received comments from the Under Secretary of Defense for Policy and the Under
Secretary of Defense for Personnel and Readiness, partially agreeing with the
recommendation. The comments of the Undor Secretary of Defense fo r Policy met the
intent of the recommendation, but we request addi tional comments from the Under
Secretary of Defense for PersOlUlel and Readiness on lhe final report by February 13, 2009,
providing n plan of action for implementing the recommendation.

Please provide commen ts that confornl to the requirements of DoD Directive 7650.3. If
possible, send client conunents in electronic format (Adobe Acrobat rile only) to
AuuROS@dodig.mil. Copies of your comments must have the actual signature of the
au thorizing official for your organization. We cannot accept the ISigned/ symbol in place
of lhe actual signature. If you arrange to scnd classified comments electronically, you
must send them over the SECRET internet Protocol Router Neiwork (S[PRNET).

We appreciate the courtesies extended to the staff. Please dircct questions to Mr. Robert F.
Prillzbach at (703) 604·8907 (DSN 664·8907).
                   Report No. D-2009-042 (Project No. D2007-D000LC-0051.000)
                                        January 16, 2009


             Results in Brief: Hiring Practices Used To
             Staff the Iraqi Provisional Authorities

What We Did                                              DoD staffed ORHA and CPA with approximately
This report responds to the concerns of Senators         2,300 members of the military, detailed civilians,
Schumer, Lautenberg, and Durbin regarding the            contractors, and newly hired civilians. Using an
practices and authority DoD used to hire civilians       inconsistent process, DoD relied largely on senior
to work for the Office of Reconstruction and             DoD officials and on the CPA Administrator and
Humanitarian Assistance (ORHA) and the                   his senior advisory staff to recruit and select
Coalition Provisional Authority (CPA). The               civilians. Of the 366 civilians hired for whom we
report addresses the Senators’ concerns over the         could locate a resumé and either an appointment
designation of appointments as political versus          memorandum or a position description, we
civil service, the authority for making the              concluded that 263 civilians were at least partially
appointments, and the qualifications of those            qualified for the position they were hired to fill. We
hired. Specifically, the report answers questions        did not review whether the civilians hired were
regarding who was hired, how personnel were              qualified for the duties they performed when
recruited and selected, and how well skill sets          deployed to Iraq.
matched job requirements. (See Appendix D.)
                                                         What We Recommend
We reissued the draft report to provide a complete       The Under Secretary of Defense for Personnel and
response to the Senators’ concerns and allow the         Readiness, in coordination with the Under Secretary
clients an opportunity to comment. The reissued          of Defense for Policy, should establish a framework
draft report incorporated the audit results and          that enables DoD effectively to staff contingencies
answers to specific questions posed by Senate            such as humanitarian, stabilization, and interagency
staffers. We considered client comments when             operations with civilians and defines departmental
preparing the reissued draft report. The complete        roles and responsibilities for supporting these
text of these comments is in the Client Comments         operations.
section.
                                                         Client Comments and Our
What We Found                                            Response
Rapidly staffing a temporary interagency                 The Under Secretary of Defense for Policy and the
organization in a war zone was a unique and              Under Secretary of Defense for Personnel and
urgent task. DoD used the appropriate                    Readiness partially concurred with the
employment and compensation authority                    recommendation. The comments of the Under
established in 5 U.S.C. 3394 and 5 U.S.C. 3161           Secretary of Defense for Policy met the intent of the
for staffing ORHA and CPA. DoD hired                     recommendation. The Special Assistant to the
366 civilians, none of whose appointments were           Secretary of Defense for White House Liaison also
Schedule C (commonly referred to as political            provided comments. The full text of these
appointments). DoD also deployed 862 detailed            comments appears in the Client Comments section
civilians to ORHA and CPA. However, the                  of the report. We request additional comments
Department did not fully account for these               from the Under Secretary of Defense for Personnel
civilians. DoD can better prepare for future             and Readiness. See the recommendation table on
contingencies by establishing a framework to             the back of this page.
document hiring actions to ensure civilians are
promptly assigned, deployed, and accounted for.




                                                     i
              Report No. D-2009-042 (Project No. D2007-D000LC-0051.000) 

                                   January 16, 2009 

Recommendation Table 

                                                    Recommendation Requires
                       Client
                                                      Additional Comment
     Under Secretary of Defense for Policy                    No
     Under Secretary of Defense for Personnel
                                                               Yes
     and Readiness

Please provide comments by February 13, 2009.




                                            ii
Table of Contents

Results in Brief	                                                i

Introduction	                                                    1

       Objective                                                 1     

       Background                                                2     

       Employment Authority for a Temporary Organization         2

       Review of Internal Controls                               3


Finding. Civilians in the Provisional Authorities	               5

       Client Comments on the Finding and Our Response          13 

       Recommendation, Client Comments, and Our Response        14 


Appendices

       A. 	Scope and Methodology                                17 

              Prior Coverage                                    19     

       B. Senate Request 	                                      21 

       C. Suitability of Privatization Associate 	              23 

       D. Answers to Questions About Hiring 	                   25 

       E. Involvement of Key Offices 	                          33 

       F. 	Chronology of Key Events in the ORHA and CPA 

             Hiring Process                                     35 


Client Comments
       Under Secretary of Defense for Policy                    37 

       Under Secretary of Defense for Personnel and Readiness   52 

       Special Assistant to the Secretary of Defense for 

            White House Liaison                                 57 

Introduction
Objective
We initiated this audit in response to a request from Senators Schumer, Lautenberg, and
Durbin. The Senators were concerned about the hiring practices DoD used to staff the
Coalition Provisional Authority (CPA) and other positions in Iraq.

              The CPA, which ran Iraq’s government from April 2003 to June 2004,
              employed approximately 1,500 people in Baghdad. Recent reports
              indicate that some of these employees lacked any experience in the
              areas they were working. For example, A 24-year old who had no
              background in finance was charged with opening Baghdad’s stock
              exchange. These reports are deeply troubling especially in light of the
              Iraqis’ on-going struggle to maintain their security and establish a
              democratic government.

Specifically, the Senators requested that our review examine:

              the appropriateness of designation [sic] these [Coalition Provisional
              Authority] positions as political rather than civil service positions, and
              the qualifications of those sent to Iraq to work in the Coalition
              Provisional Authority. . . [and] identify the authority for hiring this
              large number of personnel as non-civil service designees.

See Appendix B for a copy of the request. In addition, Senators Kennedy, Boxer, Clinton,
Akaka, Feingold, Dorgan, Feinstein, Levin, Biden, and Reid; as well as, Congressman
Waxman and Hoyer all expressed interest in the hiring practices used to staff CPA. To
clarify the scope of this request, we met with Senate staffers and agreed to address the
following questions: Who was hired? How were personnel recruited and selected? Were
skill sets matched to job requirements? Our audit objective was to evaluate the hiring
practices that DoD used to staff the provisional authorities supporting the Iraqi
Government from April 2003 through June 2004.

This report addresses the hiring practices and authority DoD used to hire civilians to
work for the provisional authorities supporting the Office of Reconstruction and
Humanitarian Assistance (ORHA) and CPA from January 2003 through June 2004. The
report concludes that no newly hired civilians were Schedule C (commonly referred to as
political appointments). In addition, the report responds to the Senators’ specific
concerns about a 24-year-old who opened the stock exchange, and answers the questions
posed by Senate staffers. Our responses are in Appendix C and Appendix D,
respectively.

To respond to this request, we examined the process DoD used to appoint civilians to
ORHA and CPA. We interviewed key individuals involved in recruitment, selection, and
hiring. In addition, we identified individuals who worked for ORHA and CPA and
reviewed resumés, position descriptions, appointment memoranda, and personnel actions.



                                                  1

 We also met with DoD officials and identified initiatives underway that will more
effectively address civilian staffing for future contingencies. See Appendix A for a
discussion of the scope and methodology and prior coverage related to the objective.

Background
On January 20, 2003, the President signed National Security Presidential Directive
(NSPD) 24, for postwar Iraq reconstruction. On January 21, 2003, the Secretary of
Defense assigned the Under Secretary of Defense for Policy (USD[P]) the primary
responsibility for implementing NSPD 24. To carry out its responsibility, DoD
established ORHA as a temporary organization to become the planning office to provide
reconstruction and humanitarian assistance to postwar Iraq. USD(P) requested the
establishment of a Director of ORHA position in February 2003. OPM approved the
Department’s selection for this position on March 11, 2003.

ORHA focused on repairing the infrastructure of Iraq, lessening dependence on
humanitarian assistance, and rejuvenating the Iraqi economy. According to the Director
of Personnel for ORHA, the ORHA team arrived in Kuwait in March 2003 at the onset of
Operation Iraqi Freedom. The team moved into Iraq on April 16, 2003, and reported on
the instability of the Iraqi Government infrastructure and security conditions. ORHA was
not configured to reestablish the Iraqi Government infrastructure or provide security. In
mid-April 2003, the Commander of the Coalition Forces established CPA to provide
security and stability in Iraq.

A Presidential envoy was appointed to Iraq on May 9, 2003, and 4 days later, the
Secretary of Defense announced the appointment of the Presidential envoy to Iraq as the
CPA Administrator. CPA was intended to operate as a transitional Iraqi Government
until the existing Iraqi Government stabilized. In addition to governance, CPA was
responsible for providing humanitarian aid, reconstruction, and staffing assistance to Iraqi
ministries. It was also charged with stimulating the Iraqi economy. On June 16, 2003,
the Deputy Secretary of Defense dissolved ORHA and directed CPA to assume the
functions, responsibilities, and legal obligations of ORHA. On May 11, 2004, the
President signed NSPD 36, “United States Government Operations in Iraq,” directing the
termination of CPA by June 30, 2004. CPA existed until June 28, 2004, when it
disbanded and its authority and responsibilities were transferred to the Iraqi
Reconstruction and Modernization Office under the U.S. Department of State and to the
Project and Contracting Office under DoD.

Employment Authority for a Temporary Organization
DoD used Section 3394, title 5, United States Code (5 U.S.C. 3394), “Noncareer and
Limited Appointments,” to assign the initial six senior ORHA leaders. 5 U.S.C. 3394
states that each limited emergency appointee shall meet the qualifications of the position
to which appointed and may not be appointed without the prior approval of the exercise
of such appointing authority by the Office of Personnel Management (OPM). A Senior
Executive Service limited emergency appointment is defined as an appointment to a
Senior Executive Service position that is established to meet a bona fide, unanticipated,
urgent need and must not exceed 18 months.


                                             2

DoD used 5 U.S.C. 3161, “Employment and Compensation of Employees,” to assign 360
personnel to ORHA and CPA. This section of the United States Code establishes the
employment and compensation authority for a temporary organization, which it defines
as an organization established by law or Executive order for a defined period not to
exceed 3 years and for a specific purpose. This authority generally is used to fill boards
or commissions because it allows the rapid hiring of civilians from outside the Federal
Government without competing the position under formal job classifications. Under this
authority, the head of the temporary organization may staff its organization by:

         appointing individuals outside the Federal Government to excepted service1
          positions;
         accepting personnel detailed from other Federal organizations;
         hiring experts and consultants under 5 U.S.C. 3109, “Employment of Experts and
          Consultants; Temporary or Intermittent;” and
         accepting volunteers.

DoD used the appropriate employment and compensation authority established in
5 U.S.C. 3394 and 5 U.S.C. 3161 to staff ORHA and CPA.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,” January 4,
2006, states that a control deficiency exists when the design or operation of a control does
not allow personnel to prevent or detect fraud, waste, abuse, or mismanagement on a
timely basis. DoD’s staffing process lacked the necessary control activities. Specifically,
DoD did not use a consistent process or maintain appropriate documentation supporting
its staffing efforts for ORHA and CPA. The lack of these control activities indicates an
internal control weakness. Although, ORHA and CPA were temporary organizations and
no longer exist, the need for properly maintaining documentation while staffing
temporary interagency organizations still exists. However, by implementing the
recommendation contained in this report, DoD will be able to effectively staff future
humanitarian, stabilization, and interagency operations and define departmental roles and
responsibilities for supporting those operations.




1
    Excepted service positions are outside the competitive service and Senior Executive Service, meaning
    that applicants for excepted service positions are not subject to OPM’s competitive hiring process.


                                                     3

4

Civilians in the Provisional Authorities
For DoD, rapidly staffing a temporary interagency organization in a war zone was a
unique and urgent task. DoD used the appropriate authority under 5 U.S.C. 3394 and
5 U.S.C. 3161 to assign personnel to ORHA and CPA. During the agencies’ 16-month
existence, DoD hired 366 new civilians, none of whose appointments were political, and
deployed 862 detailed civilians to ORHA and CPA. However, the Department did not
fully account for these civilians. DoD should prepare for future contingencies and
establish a framework to document fully all hiring and staffing actions to ensure civilians
are appropriately and promptly assigned, deployed, and tracked.

Personnel Assigned
In response to NSPD 24, DoD staffed ORHA with a mix of military personnel, detailed
civilians, contractors, and newly hired civilians. DoD used an inconsistent process to
recruit and select civilians to work for ORHA and CPA, temporary interagency
organizations, in a war zone. DoD relied largely on senior DoD officials and on the CPA
Administrator and his senior advisory staff.2 See Appendix D for details on the
involvement of these offices in the ORHA and CPA hiring process. DoD also received
support from other Federal agencies, which detailed personnel willing to deploy to Iraq in
support of its humanitarian and reconstruction operations.

                          Table 1. Composition of ORHA and CPA Staff

                                                                       Personnel
                       Category of Employment                                           Percentage
                                                                       Assigned
         Military (active duty and active reserve)                         919              40.1
         DoD detailed civilians                                            350              15.3
         Civilians detailed from other Federal agencies                    512              22.3
         Contractors                                                       144               6.3
         Newly hired civilians                                             366              16.0
           Total                                                         2,291             100.0

We identified 862 detailed civilians and 366 newly hired civilians who provided support
to the ORHA and CPA effort (see Table 1). DoD used appropriately 5 U.S.C. 3394 and
5 U.S.C. 3161 to assign these newly hired civilians.

Chronology of the Staffing Efforts
In response to NSPD 24, DoD set about the task of quickly staffing a temporary
interagency organization in a war zone. At the onset of the U.S. invasion of Iraq, DoD
began its efforts to hire civilians to support ORHA and CPA. DoD used the support of


2	
     Senior advisory staff are those personnel who directly reported to the CPA Administrator, including
     senior Ministry advisors.


                                                       5

several organizations and individuals to guide the hiring process. See Appendix F for a
chronology of key events in the ORHA and CPA hiring process.

On January 20, 2003, the President issued NSPD 24. As a result, DoD created a postwar
planning office called ORHA. The Secretary of Defense designated responsibility for
implementing NSPD 24 to the USD(P) and selected a retired senior military officer under
5 U.S.C. 3109 to plan the postwar operations in Iraq; subsequently, the officer was
appointed Director of ORHA. According to this retired senior military officer, he met
with the National Security Council3 to discuss ORHA staffing needs. In addition, he
recruited two of his former colleagues to assist him. USD(P) requested that these former
colleagues also be appointed as consultants under 5 U.S.C. 3109. The White House
Liaison Office (WHLO),4 in conjunction with Washington Headquarters Service (WHS),5
provided the administrative support for processing these appointments. The DoD
Director of Administration and Management (DA&M) authorized these appointments.

In February 2003, DoD appointed two additional retired senior military officers to assist
with ORHA operations, and Federal agencies began responding to NSPD 24 and started
to detail civilians to ORHA. In addition, the Chairman of the Joint Chiefs of Staff,
Personnel Directorate (J-1) began assigning military support to ORHA, and USD(P)
began using personal services contracts6 to supplement the ORHA staff. The Director of
ORHA asked USD(P) to hire a subject matter expert who previously worked with the
Director of ORHA in 1991 at the Iraqi Military Coordination Center to resettle Kurdish
refugees. The Defense Contracting Command-Washington (DCC-W) awarded the
contract for this individual to advise on the Kurdish situation in Iraq.

In March, the USD(P) recommended his special advisor for the position of the Civil
Administration Coordinator for ORHA. The special advisor was detailed through a
noncareer Senior Executive Service appointment under 5 U.S.C. 3394, and his
appointment was approved by OPM. Also, OPM approved changing the appointments of
the five retired senior military officers from consultants to limited emergency Senior
Executive Service appointments under 5 U.S.C. 3394. The Civil Administration
Coordinator stated that the Director of ORHA continued to recruit military personnel and
DoD civilians, and other Federal agencies continued to detail civilian employees
throughout March 2003. Also, under the direction of USD(P), DCC-W awarded


3
    The National Security Council is the principal forum used by the President for considering national
    security and foreign policy matters with his senior national security advisors and Cabinet officials.
4
    According to the WHLO Special Assistant, the traditional role of the WHLO is to identify and
    recommend individuals for approximately 250 administrative positions, approximately 50 Presidential
    appointments and approximately 200 noncareer Senior Executive Service appointments.
5
    The WHS Human Resource Directorate for Executive and Political Personnel provides the Office of the
    Secretary of Defense human resource support for Senior Executive Service appointments and senior-
    level appointments. Senior-level appointments include noncareer Senior Executive Service and
    confidential or policy-determining appointments. WHS also processes the personnel actions for hiring
    consultants and experts.
6
    DoD IG Report No. D-2004-057, “Contracts Awarded for the Coalition Provisional Authority by the
    Defense Contracting Command-Washington,” March 2004, identified these personal services contracts
    awarded between February and May 2003.


                                                     6

nine personal services contracts in March 2003 for subject matter experts. Some of the
contracts specified names of individuals hired.

The Director of Personnel for ORHA stated that the initial ORHA staff that deployed first
to Kuwait on March 16, 2003, then to Iraq a month later consisted of approximately
180 civilians, military personnel, and contractors. At this point, the Director of
Personnel for ORHA indicated that it became difficult to adequately track personnel
assigned to ORHA because DoD did not have a system to account for the staffing of a
temporary interagency organization. He stated that he expected 94 individuals to deploy;
however, almost twice that number arrived to form the initial team. This example
illustrates how DoD struggled with effectively staffing and accounting for civilian
personnel assigned to ORHA. According to the DoD Principal Director for Civilian
Personnel Policy, the Under Secretary of Defense for Personnel and Readiness
(USD[P&R]) requested guidance from OPM on how to approach staffing of a temporary
organization, and OPM recommended using the 5 U.S.C. 3161 authority, which stated
that the organization could hire individuals without traditional competitive practices
under the excepted service provision for temporary organizations.

In mid-April 2003, the Commander of the Coalition Forces established CPA to provide
security and stability in Iraq. Also in April 2003, DoD began using 5 U.S.C. 3161 and
hired seven individuals. Another 19 individuals were hired in May 2003. Augmenting
CPA staffing with these excepted service appointments was slow because DoD did not
have a framework to support the volume of staffing needed and had not defined the roles
and responsibilities for supporting a temporary interagency organization.

Also in April 2003, the Special Assistant to the Secretary of Defense for White House
Liaison (WHLO Special Assistant) stated that he became directly involved in identifying
individuals for CPA. By direction of the Secretary of Defense, the special assistant to the
Secretary of Defense requested the WHLO Special Assistant to identify individuals for
senior CPA advisor positions. The WHLO Special Assistant then became the coordinator
for identifying and recruiting individuals hired under the 5 U.S.C. 3161 staffing authority.

Additionally, in April 2003, the Secretary of Defense sent a memorandum requesting
support for ORHA to the Secretaries of the Military Departments; Chairman of the Joint
Chiefs of Staff; USD(P); Under Secretary of Defense (Comptroller); Commander, U.S.
Central Command; General Counsel, DoD; Directors of the Defense agencies; and
Directors of the DoD Field Activities.

An ambassador volunteered to assist the DoD in planning CPA, and on April 30, 2003,
the USD(P) hired him as an unpaid consultant to CPA. On May 9, 2003, the President
appointed this ambassador as the Presidential envoy to Iraq. On May 13, 2003, the
Secretary of Defense designated him also as the CPA Administrator. On May 16, 2003,
the CPA Administrator deployed to Baghdad. On May 21, 2003, the Deputy Secretary of
Defense issued a memorandum designating the Secretary of the Army as the DoD
Executive Agent to support ORHA, responsible for providing the administrative,




                                             7

logistics, and contracting support ORHA required for humanitarian relief and
reconstruction for the people of Iraq.

In May 2003, USD(P) requested DCC-W to award two additional contracts for subject
matter experts. DCC-W contracted with the Native American Industrial Distributors for
a protocol officer. The Director of ORHA requested by name an individual with whom
he had previously worked. According to the Director of ORHA, this individual was the
best protocol officer he had ever worked with in the Army. DCC-W awarded another
contract to SAIC for a subject matter expert in oil. Five months later, DoD hired this
subject matter expert as an energy representative under the 5 U.S.C. 3161 provision.

According to the CPA-Rear Chief of Staff, in August 2003 the CPA Administrator
established the CPA-Rear office at the Pentagon, which provided support to the CPA
office in Iraq. Shortly thereafter, in September 2003, the Office of the Administrative
Assistant to the Secretary of the Army, Human Resources Management Directorate,
Executive Services Division (the Army Personnel Office) assumed responsibility from
WHS for processing the newly hired civilian personnel. The Army Personnel Office
continued to process CPA personnel using the 5 U.S.C. 3161 authority.

In late September and early October 2003, the Secretary of Defense sent a memorandum
to each executive department and to the U.S. Agency for International Development
requesting additional civilian expertise to assist CPA. In the memoranda, the Secretary
of Defense identified 257 positions that should be filled.

According to the CPA-Rear Special Assistant for Personnel,7 CPA-Rear created a
recruiting team to recruit and process new civilian personnel for CPA in October 2003.
As a result, the WHLO Special Assistant became less involved in the hiring process for
CPA. The WHLO Special Assistant acted in an oversight role in the staffing process.
According to the WHLO Special Assistant, the CPA recruiting team became the focal
point for coordinating the identification and recruiting of individuals under
5 U.S.C. 3161, while his own involvement in the staffing process shifted to reviewing the
paperwork supporting an individual’s appointment before DA&M approved it.

The CPA-Rear Special Assistant for Personnel stated that the CPA recruiting team began
using an Army Web-based application called Support Our Friends in Iraq and
Afghanistan (SOFIA) in October 2003. SOFIA, which announced CPA job vacancies,
was linked to the OPM jobs Web site. According to the WHLO Special Assistant, the
recruiting team also used an Army database to identify position descriptions that best
satisfied the requirements of positions that were to be filled in Iraq. The CPA-Rear
Special Assistant for Personnel stated that, typically, the senior advisor in need of
personnel or the CPA Chief of Staff determined which position description best fit the
manning requirements. The recruiting team typically advertised the job vacancies through
SOFIA. Interested individuals posted their resumés in SOFIA, facilitating review by the
recruiting team. According to the CPA-Rear Special Assistant for Personnel, the team
usually made preliminary assessments of applicants’ qualifications by reviewing resumés
7
    The CPA-Rear Special Assistant for Personnel was the team leader of the CPA recruiting team.


                                                     8

received and comparing them with selected position descriptions. The recruiting team
provided the CPA Chief of Staff and the requiring senior advisor a list of recommended
applicants for review and selection. Based on documentation provided by a SOFIA
official, we determined that the CPA recruiting team advertised 101 positions in SOFIA
but filled only 21 positions through these vacancy announcements.

On May 11, 2004, the President signed NSPD 36, “United States Government Operations
in Iraq,” directing the termination of CPA by June 30, 2004. CPA existed until June 28,
2004, when it disbanded and transferred responsibilities to the Iraqi Reconstruction and
Modernization Office under the U.S. Department of State and to the Project and
Contracting Office under DoD. Some of the CPA personnel transitioned to work for the
Iraqi Reconstruction and Modernization Office.

Limited Emergency Appointments
DoD appropriately used 5 U.S.C. 3394 to hire the initial six senior ORHA leaders.
According to the Code of Federal Regulations, “Employment in the Senior Executive
Service,” 5 C.F.R. 317 (2008), DoD may make limited Senior Executive Service
appointments. The appointments are exempt from competitive service, but the
individuals must meet the qualifications of the positions and receive approval from OPM.
The appointments must be for a bona fide, unanticipated, and urgent need that does not
exceed 18 months. These appointments were not Schedule C8 policy-determining
positions commonly referred to as political appointments.

As noted earlier, the USD(P) initiated the staffing of ORHA in January 2003. USD(P)
appointed three retired generals, including the Director and the Deputy Director of
ORHA, as consultants under 5 U.S.C. 3109. In February 2003, the USD(P) hired another
two retired general officers as consultants using the same authority. In March 2003, the
individuals’ appointments were converted to limited emergency Senior Executive Service
positions under 5 U.S.C. 3394. The USD(P) also detailed his special advisor as a
noncareer Senior Executive Service appointee under the same provision.9 DA&M in the
Office of the Secretary of Defense endorsed these six appointments, and on March 11,
2003, OPM approved them.

Detailed Civilians Assigned
ORHA and CPA received 862 detailed civilians, 350 from DoD and 512 from other
Federal agencies. Some of the agencies that provided detailed civilians were the
Departments of State, Energy, Justice, Commerce, and Treasury; the U.S. Agency for
International Development; and the U.S. Postal Service. However, personnel records did
not reflect the detailing of these people to ORHA or CPA. Because DoD did not
adequately document the personnel movements of the detailed civilians, we were unable
to verify the completeness and accuracy of these numbers.


8
    Schedule C applies to positions that are confidential and policy determining; it can be used to staff
    temporary positions to aid in the transition between Presidential administrations.
9
    Of the six individuals hired under 5 U.S.C. 3394, one resigned in May 2003, three resigned in June 2003,
    one resigned in July 2003, and the remaining one resigned in August 2003.


                                                      9

Excepted Service Appointments
According to the DoD Principal Director for Civilian Personnel Policy, in April 2003, the
USD(P&R) requested guidance from OPM on how to approach the staffing of a
temporary organization. OPM recommended using 5 U.S.C. 3161. This authority
permits the head of a temporary organization to staff its organization by appointing
individuals from outside the Federal Government to excepted service positions.
“Excepted Service,” 5 C.F.R. 213 (2007), consistent with 2003 guidance, states that
agencies may make appointments to positions that are not of a confidential or
policy-determining nature and are not in the Senior Executive Service upon OPM
approval by publishing a statement in the Federal Register. Using excepted service
appointments enables agencies to streamline hiring by bypassing traditional competitive
hiring procedures. These appointments were not political appointments, but Schedule A
excepted service positions. In the Federal Registry, the OPM approved subsection 3199
as excepted service Schedule A 10 authority for hiring personnel for temporary
organizations. Using 5 C.F.R. 213.3199, the DoD appointed 356 civilians to excepted
service positions within CPA.

Under 5 U.S.C. 3161, the head of the temporary organization may staff its organization
by hiring experts and consultants under 5 U.S.C. 3109. DoD used 5 U.S.C. 3109 to hire
an additional 4 civilians as experts and consultants. Section 3109 states that agency
heads may hire the temporary or intermittent services of experts or consultants. Services
procured under 5 U.S.C. 3109 are exempt from competitive service. These individuals
hired as experts and consultants did not receive any employee benefits other than pay.
Thus, between April 2003 and June 2004, DoD hired 360 civilians under excepted
service Schedule A appointments. None of these appointments were political
(Schedule C).

Records
DoD did not maintain civilian records to account fully for the personnel assigned to
ORHA and CPA. DoD could not provide a list of personnel assigned to ORHA and CPA
from March 2003 through June 2004. As a result, we created a list by analyzing and
compiling information from several data sources to evaluate the hiring practices of
ORHA and CPA. We estimated that DoD assigned 2,291 personnel to ORHA and CPA
during the agencies’ 16-month existence: 919 military personnel, 862 detailed civilians,
144 contractors, and 366 newly hired civilians. However, we were unable to ensure the
accuracy of these estimates because the documentation available was not complete.

Maintaining Individuals’ Records
DoD did not adequately maintain the personnel records of the civilians hired to ORHA
and CPA. According to OPM’s “The Guide to Personnel Record-keeping,” November 1,
2006, and consistent with the December 14, 2001, guidance, official personnel files could



10
     Schedule A is used for positions other than those of a confidential or policy-determining nature when
     competitive hiring practices are impracticable.


                                                       10

contain at least approvals and authorizations for appointments,11 resumés, personnel
actions, and statements of prior Federal service. WHS and the Army Personnel Office
prepared personnel actions for newly hired civilians. However, information maintained
in the personnel files was incomplete.

We collected personnel records for the 366 newly hired civilians. However,
documentation was not available for all individuals. The personnel files we reviewed
were missing position descriptions,12 resumés, appointment memoranda, and Standard
Forms (SF) 50, “Notification of Personnel Action.” Table 2 identifies the number of
documents we obtained.

               Table 2. Summary of Personnel Documents for the 366 Hired

                                                        Documents              Documents
                     Type of Document
                                                        Not Found               Received
               Position description                         306                    60
               Resumé                                        26                   340
               Appointment memorandum                       100                   266
               Standard Form 50                               0                   366


Documenting Personnel Actions
DoD did not fully document personnel actions for the detailed civilians or newly hired
civilians. According to the OPM “Guide to Processing Personnel Actions,” revised
April 6, 2003, and current as of December 23, 2007, notifications of personnel actions
must be prepared for all accessions, conversions, and separations, as well as for all
corrections and cancellations of these actions. A notification of personnel action is
required both as official notification to the employee and as official documentation of
actions. The employee must receive all notifications of personnel action. A copy of the
notification of personnel action must be filed in the official personnel folder. The OPM
“Guide to Processing Personnel Actions” states that for any detail lasting 120 days or
more an SF-52, “Request for Personnel Action,” should be prepared showing the
organization and position to which the employee has been detailed, the effective date of
the detail, and its not-to-exceed date.

DoD and other Federal agencies did not process personnel actions for detailed civilians.
The Secretary of Defense requested that civilians be detailed for a minimum of 180 days.
We reviewed the official personnel files for 461 of 862 detailed civilians and found that
personnel action forms were completed for only 3.


11
   The appointment memoranda identified the recommended individual, the position duties, and the
   qualifications or skill sets necessary for that position. In addition, the memoranda described why the
   recommended individual qualified for the position and proposed salary.
12
   A position description documents the major duties, responsibilities, and organizational relationships of a
   job.


                                                     11

In addition, DoD did not have procedures to ensure personnel actions were properly
prepared for the hired civilians. We identified instances in which processing of
paperwork lagged civilians’ return from duty with ORHA or CPA and was inaccurate.
For example, one individual resigned from CPA in June 2003, but DoD did not process
the personnel action until March 2004. The personnel action processed had an effective
date of January 2004, 7 months after the individual resigned. In another instance, an
individual left CPA in November 2003, but DoD did not process the personnel action
until August 2004. The personnel action processed had an effective date of
January 2004, 2 months after the individual resigned. Thus, DoD did not have
procedures to ensure personnel actions were processed accurately and timely for the
civilians assigned to ORHA and CPA.

Initiatives Since 2004
Since CPA disbanded in June 2004, the President and USD(P) have issued new guidance
on stabilization operations, including reconstruction and humanitarian efforts. DoD
Directive 3000.05, “Military Support for Stability, Security, Transition, and
Reconstruction Operations,” November 28, 2005, establishes policy and assigns
responsibilities within the Department for planning, training, and supporting interagency
efforts associated with stability, security, transition, and reconstruction operations. The
directive assigns USD(P&R) the responsibility to identify personnel and training
requirements for stability operations and evaluate DoD progress in developing forces to
meet those requirements. According to the same directive, USD(P&R) is responsible for
developing methods to recruit, select, and assign current and former DoD personnel with
relevant skills to stability operations and for recommending necessary changes to related
laws, authorities, and regulations.

The President issued NSPD 44, “Management of Interagency Efforts Concerning
Reconstruction and Stabilization,” on December 7, 2005. The directive provides
guidance for the coordination, planning, and implementation of interagency efforts.
Under NSPD 44, the Secretary of State is responsible for coordinating and leading
integrated U.S. Government efforts, involving all U.S. Departments and agencies with
relevant capabilities, to prepare, plan for, and conduct stabilization and reconstruction
activities. NSPD 44 directs DoD, along with other executive departments and agencies,
to identify and develop internal capabilities for planning and managing resources and
programs that can be mobilized in response to crises. Further, NSPD 44 directs DoD and
other Departments to identify current and former civilian employees skilled in crisis
response and to establish mechanisms to reassign or reemploy these skilled personnel
rapidly in response to a crisis. The directive also requires the Secretaries of State and
Defense to develop a general framework for fully coordinating stabilization and
reconstruction activities and military operations at all levels where appropriate.




                                            12

The DoD Principal Director for Civilian Personnel Policy indicated that her office is
revising current civilian personnel policy to provide a framework for building a civilian
expeditionary workforce.13 This policy will ensure a ready, trained, and cleared civilian
workforce to respond quickly to emergency, humanitarian assistance, and other national
security missions of the Department. The policy also includes guidance for sourcing and
resourcing expeditionary requirements.

For future operations, DoD must maintain a complete and accurate database of civilian
personnel assigned to interagency efforts and maintain complete and accurate personnel
records for civilians deployed. As NSPD 44 directs, DoD needs to develop a framework
to coordinate these activities. Within the framework, DoD should define authorities and
responsibilities for hiring and staffing civilians; follow a consistent approach to recruit,
select, and assign civilians with relevant skills sets; document the staffing actions;
and use a tracking system to accurately account for civilians. Without such a framework,
DoD will continue to experience challenges staffing reconstruction and stabilization
operations.

Client Comments on the Finding and Our Response
Under Secretary of Defense for Policy Comments
The Staff Director and Special Advisor to the Under Secretary of Defense for Policy
(Staff Director) responded for the Acting Under Secretary of Defense for Policy on
August 14, 2008, and September 29, 2008. The Staff Director commented that the
Department of State has the overall responsibility for implementing NSPD 44 and leading
the interagency effort to establish a supporting civilian corps. DoD is responsible for
supporting the Department of State efforts as stated in DoD Directive 3000.05.

Our Response
We clarified the report to acknowledge the Department of State’s role in coordinating
interagency efforts in stabilization and reconstruction activities. The report recognizes
the USD(P&R) efforts in drafting policy that provides a framework for these activities.
However, USD(P&R) has not yet fully implemented the policy.

Under Secretary of Defense for Personnel and Readiness
Comments
The DoD Principal Director for Civilian Personnel Policy (Principal Director) responded
for the Under Secretary of Defense for Personnel and Readiness on August 18, 2008, and
September 29, 2008. The DoD Principal Director commented that the report should
include an expanded statement that the Department of State has overall responsibility for
implementing NSPD 44. DoD has a supporting role and should coordinate with the
Department of State according to DoD Directive 3000.05.

13
     A civilian expeditionary workforce, as subset of the DoD civilian workforce, needed to meet complex
     DoD missions such as stability, security, transition, and reconstruction operations; humanitarian
     assistance efforts; crisis interventions; and contingency operations. A civilian expeditionary workforce
     could be deployed anywhere around the world to address these operations.


                                                       13

Our Response
We clarified the report to acknowledge the Department of State’s responsibility for
implementing NSPD 44. The report recognizes the USD(P&R) efforts in drafting policy
to implement NSPD 44. However, USD(P&R) has not yet issued the policy.

Special Assistant to the Secretary of Defense for White House
Liaison Comments
The Special Assistant to the Secretary of Defense for White House Liaison (WHLO
Special Assistant) provided comments on a draft of the report on August 13, 2008, and
September 29, 2008. In his comments, the WHLO Special Assistant disagreed with
many aspects of our report. His comments, in their entirety, are included in the client
comments section, however, we did not include the referenced enclosures.

Our Response
We clarified the report where appropriate in response to the WHLO Special Assistant’s
comments.

Recommendation, Client Comments, and Our Response
We recommend that the Under Secretary of Defense for Personnel and Readiness,
in coordination with the Under Secretary of Defense for Policy, establish a
framework consistent with National Security Presidential Directive 44 and DoD
Directive 3000.05, “Military Support for Stability, Security, Transition, and
Reconstruction Operations,” November 28, 2005, that enables DoD to effectively
staff contingencies such as humanitarian, stabilization, and interagency operations
with civilians and define departmental roles and responsibilities for supporting
these operations.

Under Secretary of Defense for Policy Comments
The Staff Director and Special Advisor to the Under Secretary of Defense for Policy
(Staff Director) responded for the Acting Under Secretary of Defense for Policy and
disagreed with the recommendation. He stated that the Department of State has the
overall responsibility for implementing NSPD 44 and leading the interagency effort to
establish a Civilian Response Corps.14 DoD has a supporting role to the Department of
State and must closely coordinate with the Department of State in establishing a
framework in accordance with DoD Directive 3000.05. The Staff Director requested that
the recommendation be clarified to recognize USD(P&R)’s ongoing efforts and expanded
to include the requirement for the USD(P&R) to coordinate with the Department of State
to ensure complementary planning and use of these new civilian capabilities.




14
     The Civilian Response Corps will comprise Federal employees and, eventually, volunteers from the
     private sector and State and local governments. Corps members will be trained and equipped to deploy
     rapidly to countries in crisis or emerging from conflict, to provide reconstruction and stabilization
     assistance.


                                                      14

Our Response
The USD(P) comments were responsive and meet the intent of our recommendation. We
clarified the report to acknowledge the Department of State’s responsibility for
implementing NSPD 44. The report recognizes USD(P&R) initiatives. However, we
disagree that USD(P&R) should be responsible for coordinating with the Department of
State to staff contingencies. According to DoD Directive 3000.05, such responsibility
resides with the Under Secretary of Defense for Policy. We did not expand the
recommendation.

Under Secretary of Defense for Personnel and Readiness
Comments
The DoD Principal Director for Civilian Personnel Policy (Principal Director) responded
for the Under Secretary of Defense for Personnel and Readiness and generally agreed
with the recommendation; however, she stated that it could be expanded to reflect the
actions taken by the Department and clarified to be consistent with the recommendations
made by the Defense Human Resources Board on August 21, 2008, on the civilian
expeditionary workforce framework and policies. Further, she stated that DoD is in a
supporting role to the Department of State and must closely coordinate with the
Department of State in accordance with DoD Directive 3000.05.

Our Response
The USD(P&R) comments were partially responsive. The report acknowledges
USD(P&R) policy initiatives. However, we do not believe the recommendation needs to
be revised to include recommendations from the Defense Human Resources Board.
USD(P&R) has the discretion to determine how to effectively implement NSPD 44 and
DoD Directive 3000.05. We request that USD(P&R) comment on the final report and
provide a plan of action for implementing this recommendation.




                                          15

16

Appendix A. Scope and Methodology
We conducted this performance audit from January 2007 through September 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We collected, reviewed, and analyzed documents dated from January 2003 through
February 2008. Specifically, we evaluated official personnel files that contained
notification of personnel actions, appointment letters, resumés, appointment affidavits,
applications, declarations of Federal service, statements of prior service, and position
descriptions. In addition, we evaluated travel orders and payroll records to identify
personnel assigned to ORHA and CPA. We reviewed 12 contracts identified in DoD IG
Report No. D-2004-057. Specifically, we reviewed the contract, statement of work, and
justification and approval for other than full and open competition to determine the number
of subject experts requested, whether any were requested by name, what services subject
matter experts were to provide, and the justification for the contract.

We interviewed former ORHA and CPA officials who were involved in the hiring and
recruitment of staff for ORHA and CPA. In addition, we interviewed staff assigned to
CPA. We also met with the USD(P&R) to identify initiatives underway to more
effectively address civilian staffing for contingencies.

DoD was unable to provide us with a listing of individuals who were assigned to ORHA
and CPA. To identify who was assigned to ORHA and CPA, we compiled a list of
individuals who worked for ORHA and CPA by analyzing the following data sources:

       	 draft joint manning documents from the former ORHA Director of Personnel
          (C-1) that identified individuals assigned to ORHA and CPA between March and
          August 2003;
        unofficial personnel files maintained by the CPA Project and Contracting Office1
          that identified newly hired civilians;
        a list of personnel from the Army Personnel Office that identified individuals
          assigned to CPA between October 2003 and June 2004;
       	 results of a data query of the Defense Civilian Personnel Data System that
          identified individuals processed by Washington Headquarters Services (WHS)
          and the Army Personnel Office between January 2003 and June 2004;
       	 results of a data query of a DoD database called SOFIA to identify individuals
          who were hired between January and June 2004 for positions listed in SOFIA;


1	
     DoD created the Project and Contracting Office to provide acquisition and project management support
     in Iraq.


                                                     17

         results of a data query processed by the Defense Finance and Accounting Service
          payroll system to identify individuals paid by WHS and the Army Personnel
          Office between January 2003 and June 2004;
         results of a data query of travel vouchers processed by the Defense Finance and
          Accounting Service for individuals who filed travel orders or vouchers between
          April 2003 and June 2004; and
         Twelve personal service contracts that identified contractors hired between
          February and May 2003.

We combined and reconciled the data obtained from these sources to identify
2,291 individuals who showed indications of being assigned to ORHA or CPA. The staff
population consisted of four categories: members of the military, detailed civilians, newly
hired civilians, and contractors. In developing the population, we compared a list of
military personnel provided by Defense Manpower Data Center with names on military
travel vouchers, and reviewed DoD civilian personnel payroll files provided by the
Defense Finance and Accounting Service, a list of individuals hired under 5 U.S.C. 3161
identified by the Defense Civilian Personnel Data System, and names of contractor
personnel identified in DoD IG Report No. D-2004-057.

We attempted to collect personnel records for the 366 newly hired civilians. However,
documentation was not available for all individuals. Based on the data received, we
reviewed the qualifications of 263 individuals hired who had a resumé and either an
appointment memorandum or a position description. We compared the qualifications
outlined in 58 position descriptions2 and 205 appointment memoranda3 with the resumés
of the selected individuals. We did not validate the legitimacy of the job requirements or
verify the validity of the resumés.

Use of Computer-Processed Data
To achieve the audit objective, we used data extracted from the Operational Data Store,
Defense Civilian Pay System, Defense Civilian Personnel Data System, SOFIA, and
Electronic Document Access system. We matched computer-processed records against
corresponding source records to ensure the information extracted and used from the
systems was reliable. We did not find significant errors between the computer-processed
data and source documents that would preclude the use of the computer-processed data.

Use of Technical Assistance
We obtained assistance from the Quantitative Methods Division of the Office of
Inspector General. The Quantitative Methods Division assisted the auditors in
developing a database listing names of individuals assigned to ORHA or CPA. The
Quantitative Methods analyst combined 26 data sources to identify a population of
individuals that potentially were associated with ORHA or CPA. The analyst removed

2
    We obtained 60 position descriptions and used 58 because 1 position description did not list
    qualifications and 1 position description did not have a resumé associated with it.
3
    We obtained 266 appointment memoranda. We used 205 because 53 appointment memoranda were for
    individuals whose qualifications we checked using position descriptions and resumés, and the remaining
    8 appointment memoranda had no resumés associated with them.


                                                     18

from the population names that were duplicates and people whose period of employment
was outside the dates of ORHA and CPA’s existence. In addition, the analyst reconciled
the population listing with data obtained from the Defense Manpower Data Center,
Defense Finance and Accounting Service, Defense Civilian Personnel Data System, and
DoD IG Report No. D-2004-057 to categorize personnel that DoD assigned to ORHA
and CPA. Using this reconciliation, the analyst categorized personnel assigned to support
ORHA and CPA as military personnel, DoD civilian detailees, other Federal agency
detailees, contractors, and new hires.

Prior Coverage
During the last 5 years, the Government Accountability Office, the DoD Inspector
General, and the Special Inspector General for Iraq Reconstruction have issued four
reports discussing ORHA and CPA. Unrestricted Government Accountability Office
reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
DoD Inspector General reports can be accessed at http://www.dodig.mil/audit/reports.

Government Accountability Office
Government Accountability Office Report Number GAO-04-902R, “Rebuilding Iraq:
Resources, Security, Governance, Essential Services, and Oversight Issues,” June 2004

DoD Inspector General
DoD IG Report Number D-2004-057, “Contract Awarded for the Coalition Provisional
Authority by the Defense Contracting Command-Washington,” March 2003

Special Inspector General for Iraq Reconstruction
Special Inspector General for Iraq Reconstruction Report Number 1, “Iraq
Reconstruction: Lessons in Human Capital Management,” January 2006

Special Inspector General for Iraq Reconstruction Report Number 04-002, “Management
of Personnel Assigned to the Coalition Provisional Authority in Baghdad, Iraq,”
June 2004




                                           19

20

Appendix B. Senate Request 





                    21

22

Appendix C. Suitability of Privatization
Associate
The Senators noted in their request that recent reports indicated that some individuals
employed by CPA lacked any experience in the areas in which they were working. The
Senators cited the example of a 24-year-old who had no background in finance but was
charged with opening Baghdad’s stock exchange. Although we did not evaluate the
duties performed by the 24-year-old while in Iraq, we did examine the individual’s job
requirements and skill sets for the position hired. We interviewed the individual (hired as
a privatization4 associate) and his supervisor, the Director of Private Sector Development.

According to the individual, he submitted his unsolicited resumé to the CPA
Representative, whom he had met while applying for a job at the White House. The CPA
Representative forwarded it to the CPA recruiting team. The Director of Private Sector
Development stated that he interviewed and selected the individual for a position within
his directorate as a privatization associate. The individual occupied the position from
September 12, 2003, to June 20, 2004. The privatization associate’s duties outlined in his
appointment memorandum were to furnish the Director with research and analysis on
privatization including the creation of corporations, the selling of shares, and training.
The job requirements identified in the appointment memorandum were as follows:

               [1] Knowledge of privatization programs, operations, objectives, and
               policies along with a knowledge of management and organizational
               techniques, systems, and procedures to perform a wide variety of analytical
               studies and projects related to privatization and development issues;
               [2] ability to be tactful and considerate in dealing with persons at various
               levels of authority within and outside of the federal government and from a
               variety of backgrounds; [3] ability to analyze, evaluate, unexpected/new
               situations and make logical decisions/recommendations in a timely manner.
               [4] The incumbent must be able to develop and prepare written and oral
               communications; [5] and must be able to exercise initiative,
               resourcefulness, and discretion and be able to solve problems.

The appointment memorandum indicated that the individual was qualified for the
position because of his employment as an associate with an independent real estate
advisory firm where he performed market, economic, and demographic analyses;
surveyed residential and commercial properties to evaluate marketing and execution; and
wrote detailed reports of client meetings. The individual holds a bachelor’s degree in
political science.

In our review of the individual’s qualifications, we developed criteria for each of the
qualifications. We analyzed the resumé and determined that the individual was qualified
for the position. The individual met four of the five job requirements. If an individual

4
    Privatization is defined as the incidence or process of transferring ownership of a business from the
    public sector (government) to the private sector (business). In a broader sense, privatization refers to the
    transfer of any government function to the private sector, including governmental functions like revenue
    collection and law enforcement.


                                                       23

met at least 75 percent of the job requirements, we concluded that the individual was
qualified. We did not weight the job requirements, nor did we validate the adequacy of
the job requirement for the privatization associate position. The one job requirement for
which the individual’s resumé did not substantiate the requisite skill sets was the first
requirement shown above. According to both the privatization associate and the Director
of Private Sector Development, the individual’s initial assignment was to determine what
was necessary to reestablish the Baghdad stock exchange. The privatization associate
stated the Director told him that a finance degree was not necessary for the job as a
privatization associate.




                                           24

Appendix D. Answers to Questions About
Hiring
The following summary provides our response to the questions that we agreed to answer
in connection with the Senators’ request on September 19, 2006, to evaluate the hiring
practices for CPA. In particular, the summary answers specific questions posed by staff
employees from multiple Senate offices in December 2006: (1) Who was hired? (2) How
were ORHA and CPA personnel recruited and selected? and (3) Were skill sets matched
to job requirements?

Who Was Hired?
To staff ORHA and CPA, DoD assigned military personnel, civilians from DoD and
other Federal agencies, and newly hired civilians using authority provided under
5 U.S.C. 3394 and 5 U.S.C. 3161. DoD also hired contractors to support the initial
staffing of ORHA. DoD was unable to provide a list of personnel assigned to ORHA and
CPA. According to the WHLO Special Assistant, DoD developed a database of CPA
personnel, which was functioning by late January 2004. However, DoD was unable to
provide the database.

To conduct our audit, we created a listing of ORHA and CPA personnel. We used
multiple data sources: draft joint manning documents; unofficial personnel records; a list
of personnel from the Army Personnel Office; data query results from the Defense
Civilian Personnel Data System, SOFIA, DoD payroll systems, and DoD travel vouchers;
and personal service contracts. We were unable to find other reliable data sources. We
identified approximately 2,300 personnel assigned to ORHA and CPA from
February 2003 through June 2004. Our database showed that 16 percent of ORHA and
CPA employees were newly hired civilians; however, we were unable to ensure that we
had completely and accurately identified all ORHA and CPA personnel. The table below
shows the makeup of the cumulative ORHA and CPA workforce from ORHA’s inception
in March 2003 through CPA’s disbandment in June 2004.

                          Composition of ORHA and CPA Staff

                                                                 Personnel
                  Category of Employment                                          Percentage
                                                                 Assigned
     Military (active duty and active reserve)                       919             40.1
     DoD detailed civilians                                          350             15.3
     Civilians detailed from other Federal agencies                  512             22.3
     Contractors                                                     144              6.3
     Newly hired civilians                                           366             16.0
       Total                                                       2,291            100.0
     Note: The table does not include coalition forces assigned to ORHA or CPA.




                                                25

We reviewed the appointments of the 366 newly hired civilians for ORHA and CPA.
DoD hired the majority through Schedule A,1 excepted service appointments. None of
the appointments were Schedule C2 or political appointments. DoD used 5 U.S.C. 3161 to
hire 360 people from outside the Federal Government for excepted service appointments,
which were not competed; DoD used 5 U.S.C. 3394 to hire the remaining six individuals
through limited emergency SES appointments. OPM approved these SES appointments
and authorized the Department’s use of 5 U.S.C. 3161.

How Were Personnel Recruited and Selected?
Staffing ORHA and CPA was a unique and urgent task. DoD used an inconsistent
process to recruit and select civilians to work for ORHA and CPA, temporary interagency
organizations, in a war zone. Several Government offices were involved. DoD relied
largely on senior DoD officials and on the CPA Administrator and his senior advisory
staff. These DoD officials included the Secretary of Defense, Deputy Secretary of
Defense, USD(P), WHLO Special Assistant, and DA&M. In addition, the White House
Director of the Office of Presidential Personnel and the Chief of Staff to the President
approved the individuals selected for the senior-level appointments.

In March 2003, senior DoD officials changed the initial six senior ORHA personnel to a
limited emergency temporary Senior Executive Service position using 5 U.S.C. 3394.
DoD received the appropriate OPM authorization for assigning these six appointments.
These six individuals were hired through their contacts with DoD senior leadership.
According to the Director of ORHA, the Secretary of Defense recruited and
recommended him. The Director of ORHA recommended and recruited four other
ORHA officials, who were retired generals. According to the USD(P), he recommended
one ORHA official who worked in his office. According to the ORHA Director of
Personnel, the ORHA staff consisted of military personnel, detailed civilians, and
contractors and totaled approximately 180 personnel. According to several DoD
officials, the Director of ORHA recruited these personnel through the halls of the
Pentagon.

In April 2003, with the establishment of CPA, DoD began using 5 U.S.C. 3161 to
supplement the military personnel and detailed civilians working for CPA. DoD hired
360 civilians to excepted service positions in CPA between April 2003 and June 2004.
According to DA&M, DoD concurrently assigned both military personnel and detailed
civilians to CPA. Section 3161, title 5, United States Code allows the CPA
Administrator to hire individuals from outside the Federal Government without
competing the positions, to accept detailed personnel from DoD and other Federal
agencies, to hire experts and consultants, and to accept volunteer services.




1
    Schedule A applies to other than confidential or policy-determining positions for which open competition
    and traditional competitive requirements are impractical.
2
    Schedule C applies to appointments for positions that are policy determining or involve a close and
    confidential working relationship with key appointed officials. Schedule C can be used to fill temporary
    positions to aid in the transition between Presidential administrations.


                                                     26

DoD complied with the provisions of 5 U.S.C. 3161 for hiring civilians to work for CPA
but used inconsistent procedures to hire them. The senior DoD officials identified
potential individuals through personal contacts, recommendations, and referrals. We
could not confirm whether interviews were conducted for all applicants; however, when
an individual was interviewed, DoD senior officials generally conducted the interview.
According to the former DA&M, the officials were not required to ask any prescribed or
standard interview questions of each individual. The interview questions were tailored to
the duties of the position. The WHLO Special Assistant stated that individuals selected
for senior-level appointments were vetted through senior DoD officials, the CPA
Administrator or his senior advisory staff, and White House officials. Of the 366 hired,
we determined that 63 received senior-level appointments.3 According to the WHLO
Special Assistant, the vetting process for senior personnel included the Deputy Secretary
of Defense, DA&M, the CPA Administrator, the CPA-Rear Special Assistant for
Personnel, the White House Director of the Office of Presidential Personnel, and the
Chief of Staff to the President—all of whom had to agree with the selection before
DA&M approved an individual’s appointment. DA&M was the final approval authority
for the new civilian appointments.

DoD appointed approximately 63 new hires to senior-level positions. Once an individual
successfully cleared the vetting process, WHS or the Army Personnel Office processed
the individual’s appointment. We were unable to determine whether all 63 individuals
went through the vetting process. However, according to the WHLO Special Assistant,
DA&M, and the CPA recruiting team, all new civilian personnel applying for senior-level
positions were vetted.

The WHLO Special Assistant was involved in the staffing process throughout the
16-month existence of ORHA and CPA. According to the WHLO Special Assistant, he
provided administrative support for processing the initial six ORHA appointments. Then,
the special assistant to the Secretary of Defense asked the WHLO Special Assistant to
identify individuals for senior advisor positions. Later, as more personnel were needed in
Baghdad, the WHLO Special Assistant became the coordinator for identifying and
recruiting all civilians hired.

The WHLO Special Assistant contacted potential individuals to determine their interest
in supporting CPA efforts and collected their resumés. He received resumés directly
from some individuals and participated in some of the interviews. In addition, he ensured
that the senior-level applicants were vetted before DA&M approved their appointments.
The WHLO Special Assistant reviewed the documentation for the majority of the
applicants. After CPA established a recruiting team, the WHLO Special Assistant
acknowledged that he assisted less with identifying and recruiting potential individuals
than with coordinating the processing of the new civilian appointments.

As ORHA transitioned into CPA, the CPA Administrator and his senior advisory staff
generated staffing requirements and reported the requirements to senior DoD officials.

3	
     Senior-level appointments included CPA Administrator; Director of ORHA and his deputies; senior
     advisors; directors; chief operating officers; and chief financial officers.


                                                    27

According to the CPA Chief of Staff, staffing requirements were always changing
because of the conditions in Iraq. In addition to determining requirements, the CPA
Administrator and his senior advisory staff identified potential individuals to hire through
personal contacts and recommendations and provided the names of potential individuals
to the WHLO Special Assistant for recruiting. The CPA Administrator interviewed some
individuals; however, he stated that he relied more on his senior advisory staff to support
the staffing process.

According to the CPA-Rear Special Assistant for Personnel, the CPA Administrator
created a CPA recruiting team in the Pentagon in October 2003 to facilitate the hiring
process. DoD hired six new civilian personnel to assist the CPA Administrator and his
senior advisory staff in the identification, recruitment, and processing of personnel.
Three of the six hired had extensive recruiting experience. For example, the CPA-Rear
Special Assistant for Personnel, the team leader of the CPA recruiting team, had spent
3 years identifying and screening Presidential appointees to Federal agencies for the
White House. All six individuals had bachelor’s degrees, two had master’s degrees, and
two had doctorates.

The CPA-Rear Special Assistant for Personnel stated that the recruiting team collected
resumés submitted by individuals and received names of potential individuals from CPA
officials or senior DoD officials. According to a member of the CPA recruiting team, the
team contacted the individuals to determine whether they were interested in supporting
CPA efforts. The recruiting team also coordinated the interviews of individuals. For
senior-level appointments, the CPA Administrator or designee vetted the individuals. For
other appointments, the Ministry advisory staff or CPA Chief of Staff generally initiated
the staffing requirement and selected or coordinated the individuals to fill vacancies.

According to the CPA-Rear Special Assistant for Personnel, in October 2003 the CPA
recruiting team added the Army Web-based application, SOFIA, to expand the staffing
effort. SOFIA advertised some of the CPA openings and identified potential individuals
for those nonsenior-level positions. The CPA senior advisory staff identified the staffing
requirement, and the recruiting team worked with the Army to post the position vacancy
in SOFIA. Individuals submitted their resumés through SOFIA, which screened them
and identified individuals that qualified for the position. The CPA recruiting team then
provided the list of qualified individuals and their resumés to the CPA senior advisory
staff, who selected individuals. We identified 21 individuals who were hired through
SOFIA for CPA.

WHS and the Army Personnel Office provided human resource and administrative
support. WHS supported CPA until the Army Personnel Office took over the
responsibility in September 2003. The human resource and administrative support
included developing position descriptions, determining compensation, processing
security clearances, drafting appointment memoranda, and compiling documents for
review and approval. The WHLO Special Assistant reviewed the paperwork supporting
an individual’s appointment before the DA&M received the package for approval. The
DA&M approved the new appointments for CPA.



                                            28

Recruitment and Selection Examples
The following examples provide a description of how DoD recruited and selected specific
individuals for ORHA and CPA. These examples provide a mix of positions from senior-
level to nonsenior-level appointments and summarize the individuals’ credentials.

Senior Advisor to the Iraqi Ministry of Health
According to the selected individual, the Deputy Secretary of Defense solicited a referral
for the CPA senior advisor to the Iraqi Ministry of Health from the Governor of
Michigan. Based on the Governor’s recommendation, the Deputy Secretary asked the
WHLO Special Assistant to contact the individual and determine whether he was
interested in the position. According to the selected individual, several senior DoD
officials, including the Deputy Secretary, interviewed him before DA&M appointed him
senior advisor to the Iraqi Ministry of Health, where he served from May 19, 2003,
through June 30, 2004. The individual’s credentials included being president of a
consulting group that provided services in business development, health policy, media
relations, and government relations. This individual also was the Director of a State’s
community health department. This individual had a bachelor’s degree in sociology and
economics and a master’s degree in social work.

Senior Advisor to the Iraqi Ministry of Youth and Sports
The WHLO Special Assistant recommended the individual selected as CPA senior
advisor to the Iraqi Ministry of Youth and Sports to the CPA Administrator and CPA
Chief of Staff. Both agreed with the recommendation. According to the individual, he
was interviewed by the CPA Chief of Staff, CPA-Rear Chief of Staff, CPA-Rear Special
Assistant for Personnel, and WHLO Special Assistant before went through the vetting
process and obtaining the approval of the Deputy Secretary and the White House Chief of
Staff. The appointee held the position from September 5, 2003, through June 26, 2004.
His credentials included working as a consultant to a college providing scholarships to
students from postwar areas to educate them to assist in reconstruction and humanitarian
assistance when they returned to their countries. He had previously worked with the
United Nations Children’s Fund. The individual had bachelor’s degrees in computer
science and economics; master’s degrees in international business and economic
development and policy, planning, and evaluation; and a doctorate in administrative and
policy studies. He spoke Arabic, English, French, German, and Albanian.

Senior Advisor to the Iraqi Ministry of Interior
According to the CPA-Rear Chief of Staff, the individual submitted his resumé directly to
the CPA-Rear Chief of Staff. According to the CPA-Rear Chief of Staff, the CPA
Administrator was searching for a successor to the existing CPA senior advisor to the
Iraqi Ministry of the Interior. The incumbent, who was leaving Iraq, gave a favorable
assessment, saying the individual “is by far the most qualified of anyone we have looked
at or spoke[n] to, to replace me.” The CPA Administrator approved the individual as
successor to the senior advisor at the Ministry of the Interior, where he served from
September 5, 2003, through June 27, 2004. According to the WHLO Special Assistant,
he interviewed the individual. The individual was retired from Federal service with the



                                            29

Drug Enforcement Agency, where he served in the Senior Executive Service and held a
bachelor’s degree in zoology.

Senior Advisor to the Iraqi Ministry of Higher Education and Scientific
Research
According to the WHLO Special Assistant, the Secretary of Defense recommended to the
WHLO Special Assistant an individual to serve as the CPA senior advisor to the Iraqi
Ministry of Higher Education and Scientific Research. According to the CPA Chief of
Staff, the CPA Administrator accepted the Defense Secretary’s recommendation. The
WHLO Special Assistant sent the individual’s resumé through the vetting process to
obtain the approval of the Deputy Secretary and the White House before having the WHS
process the individual’s appointment through DA&M. The appointee held the position
from August 22, 2003, through June 24, 2004. According to the WHLO Special
Assistant, he interviewed the individual. The individual’s credentials included being a
senior research fellow at a liberal arts college and the president of a consulting company
specializing in curricular renewal in the liberal arts. The individual had bachelor’s
degrees in political science and history and a doctorate in government.

Staff Assistants for International Donors Conference
According to the WHLO Special Assistant, the CPA senior advisor to the Iraqi Ministry
of Planning needed staff assistants immediately to provide administrative support for an
international donors conference. This assignment was expected to last 6 weeks. The
senior advisor to the Iraqi Ministry of Planning made the staffing request to the WHLO
Special Assistant. The WHLO Special Assistant stated that he never considered using
DoD detailed civilians for these staff assistant positions because of the short response
time required. CPA hired 14 staff assistants to support the international donors
conference.

   	 On September 3, 2003, the WHLO Special Assistant contacted the Heritage
      Foundation and requested resumés of “strong, courageous, and talented” young
      people to fill staff assistant positions. He stated that he contacted the Heritage
      Foundation because he knew that it maintained a database of resumés of
      individuals who would qualify for the staff assistant positions. The Heritage
      Foundation provided resumés of nine individuals to the WHLO Special Assistant.
      The CPA hired five of the nine individuals. We could not determine why four
      individuals were not hired.
    CPA also hired an individual who directly contacted the WHLO Special Assistant
      after learning of the position from a contact at the Heritage Foundation.
    CPA hired two other staff assistants, one recommended by a consultant working
      for the WHLO Special Assistant, and the other by a contractor working for CPA.
    We were unable to obtain information on how the remaining six individuals were
      selected as staff assistants for the international donors conference.




                                           30

Transmission and Distribution Engineer
In December 2003, a program manager from the Ministry of Electricity initiated a request
through the CPA Director of Civilian Personnel in CPA-Forward,8 which provided
support to the CPA office in Iraq to hire a particular transmission and distribution
engineer. The Ministry needed an engineer with at least 15 years’ experience in high-
voltage transmission and distribution, and experience in overseeing project management
and supervising electrical projects. After processing by the WHLO Special Assistant and
the recruiting team, DA&M appointed the individual as transmission and distribution
engineer on April 13, 2004. The individual’s credentials included 45 years of electrical
power distribution and project management experience. The individual had worked
overseas as an electrical general superintendent with a number of companies.

Were Skill Sets Matched to Job Requirements?
In answering this question, we were limited by the evidence that was available. We
obtained resumés, position descriptions, and appointment memoranda. We were unable
to determine the number of individuals interviewed or to contact the interviewer because
no interview records were maintained. Using the data received, we reviewed the
qualifications of 263 individuals hired who had a resumé, appointment memorandum, or
position description. We did not assess or review the actual position or duty performed
by the individual once hired or deployed to Iraq.

We reviewed position descriptions and resumés of 58 individuals hired and the
appointment memoranda and resumés of 205 individuals hired. We determined that an
individual was qualified for the position appointed if the individual’s resumé indicated
skills that matched 75 percent or more of the position’s job requirements. We determined
that an individual was partially qualified for the position to which he or she was
appointed if the individual’s resumé indicated skills that matched or partially matched at
least one of the job requirements. We concluded that 263 civilians were at least partially
qualified for the positions they were hired to fill.

We did not validate the legitimacy of the job requirements presented or verify the
information presented in the resumé. Documentation and testimony from the
CPA human resource specialist who prepared the majority of the appointment documents
indicated that the appointment memoranda and position descriptions were drafted after
receiving the recommended individual’s resumé.

We reviewed the qualifications of 263 individuals hired for whom we could locate a
resumé and either an appointment memorandum or a position description. We reviewed
58 individuals who had both position descriptions and resumés, and 205 individuals who
had appointment memoranda and resumés but were not included in the review of the
58 position descriptions. We determined that 138 of 263 (53 percent) of the individuals
were qualified for the positions they were hired to fill. The remaining 125 individuals
were partially qualified.


8
    CPA-Forward refers to the CPA office in Baghdad.


                                                  31

Following are examples of job requirements that were not fully met by the
128 individuals who qualified only partially for the positions they were hired to fill.

   	 Thirty-eight individuals did not meet the requirement of the knowledge of the
      organization and functional relationships within the DoD, CPA, or ORHA and
      their relationships with other Cabinet-level agencies involved in the formation of
      policy and plans.

   	 Thirty-five individuals did not meet the requirement of the ability to take decisive
      action and speak with authority on behalf of senior officials in the Office of the
      Secretary of Defense, CPA, or ORHA in dealing with contacts or components
      inside and outside of DoD or CPA.

   	 Thirty-five individuals did not meet the requirement of knowledge of postwar
      security, reconstruction, civil administration, interim governance, humanitarian
      assistance, and expeditionary support.

   	 Thirty-four individuals did not meet the requirement of the ability to effectively
      negotiate conflicting views to develop policy in pursuit of national policies and
      goals and national objectives.

   	 Thirty-one individuals did not meet the requirement of the knowledge of
      qualitative and quantitative techniques for analyzing and measuring the
      effectiveness, efficiency, and productivity of programs, along with knowledge of
      the mission, organization, and work processes of programs throughout CPA or
      ORHA.




                                             32

Appendix E. Involvement of Key Offices 





                          33

34 

Appendix F. Chronology of Key Events in the ORHA and CPA Hiring Process 





                         35 

36

Under Secretary of Defense for Policy Comments on the
Initial Draft Report

                                                          Final Report
                                                           Reference




                                                        Added Appendix
                                                        D, Pages 25-32
                   Click to add JPEG file




                                  37
Under Secretary of Defense for Policy Comments on the
Initial Draft Report

                                                          Final Report
                                                           Reference




                                                        Revised, Page 2




                   Click to add JPEG file




                                  38
Under Secretary of Defense for Policy Comments on the
Initial Draft Report
                                                                           Final Report
                                                                            Reference




                                                                         Page 4




                         Click to add JPEG file




Note: Names have been removed in accordance with OMB Memorandum 07-16,
"Safeguarding Against and Responding to the Breach of Personally
Identifiable Information," May 22, 2007.




                                          39
Under Secretary of Defense for Policy Comments on the
Initial Draft Report
                                                                           Final Report
                                                                            Reference




                                                                         Revised, Page
                                                                         11-12




                                                                         Revised, Page
                                                                         11-12




                         Click to add JPEG file




Note: Names have been removed in accordance with OMB Memorandum 07-16,
"Safeguarding Against and Responding to the Breach of Personally
Identifiable Information," May 22, 2007.




                                          40
Under Secretary of Defense for Policy Comments on the
Initial Draft Report
                                                                           Final Report
                                                                            Reference




                                                                         Revised, Page 12




                                                                         Revised, Page 12




                         Click to add JPEG file




Note: Names have been removed in accordance with OMB Memorandum 07-16,
"Safeguarding Against and Responding to the Breach of Personally
Identifiable Information," May 22, 2007.




                                          41
Under Secretary of Defense for Policy Comments on the
Initial Draft Report
                                                                           Final Report
                                                                            Reference




                                                                         Page 13




                         Click to add JPEG file




Note: Names have been removed in accordance with OMB Memorandum 07-16,
"Safeguarding Against and Responding to the Breach of Personally
Identifiable Information," May 22, 2007.




                                          42
Under Secretary of Defense for Policy Comments on the
Initial Draft Report




                                                                         Page 13




                                                                         Page 13




                         Click to add JPEG file




Note: Names have been removed in accordance with OMB Memorandum 07-16,
"Safeguarding Against and Responding to the Breach of Personally
Identifiable Information," May 22, 2007.




                                          43
Under Secretary of Defense for Policy Comments on the
Initial Draft Report
                                                                           Final Report
                                                                            Reference




                                                                         Page 14




                         Click to add JPEG file




Note: Names have been removed in accordance with OMB Memorandum 07-16,
"Safeguarding Against and Responding to the Breach of Personally
Identifiable Information," May 22, 2007.




                                          44
Under Secretary of Defense for Policy Comments on the
Initial Draft Report




                   Click to add JPEG file




                                  45
Under Secretary of Defense for Policy Comments on the
Revised Draft Report
                                                          Final Report
                                                           Reference




                   Click to add JPEG file               Page 14




                                  46
Under Secretary of Defense for Policy Comments on the
Revised Draft Report




                   Click to add JPEG file




                                  47
Under Secretary of Defense for Policy Comments on the
Revised Draft Report
                                                                           Final Report
                                                                            Reference




                                                                         Revised, Page 9




                                                                         Page 12




                         Click to add JPEG file




Note: Names have been removed in accordance with OMB Memorandum 07-16,
"Safeguarding Against and Responding to the Breach of Personally
Identifiable Information," May 22, 2007.




                                          48
Under Secretary of Defense for Policy Comments on the
Revised Draft Report
                                                                           Final Report
                                                                            Reference




                                                                         Revised, Page 14




                         Click to add JPEG file




Note: Names have been removed in accordance with OMB Memorandum 07-16,
"Safeguarding Against and Responding to the Breach of Personally
Identifiable Information," May 22, 2007.




                                          49
Under Secretary of Defense for Policy Comments on the
Revised Draft Report




                   Click to add JPEG file




                                  50
Under Secretary of Defense for Policy Comments on the
Revised Draft Report
                                                          Final Report
                                                           Reference




                                                        Revised, Page 6




                   Click to add JPEG file




                                  51
Under Secretary of Defense for Personnel and Readiness
Comments on the Initial Draft Report
                                                           Final Report
                                                            Reference




                   Click to add JPEG file
                                                         Page 11




                                  52
Under Secretary of Defense for Personnel and Readiness
Comments on the Initial Draft Report




                   Click to add JPEG file




                                  53
Under Secretary of Defense for Personnel and Readiness
Comments on the Revised Draft Report




                   Click to add JPEG file




                                  54
Under Secretary of Defense for Personnel and Readiness
Comments on the Revised Draft Report
                                                           Final Report
                                                            Reference




                                                         Page 14




                   Click to add JPEG file




                                  55
Under Secretary of Defense for Personnel and Readiness
Comments on the Revised Draft Report




                   Click to add JPEG file




                                  56
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report




                         Click to add JPEG file




 Note: The WHLO Special Assistant redacted the names from his comments.




                                          57
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report
                                                            Final Report
                                                             Reference




                                                          Page 21




                    Click to add JPEG file




                                   58
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report
                                                            Final Report
                                                             Reference




                                                          Page 21




                    Click to add JPEG file
                                                          Page 21




                                                          Page 21




                                   59
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report
                                                            Final Report
                                                             Reference




                    Click to add JPEG file




                                                          Revised, Page i




                                   60
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report
                                                            Final Report
                                                             Reference




                                                          Page 9




                                                          Revised, Page 10


                                                          Page 21


                                                          Page 21
                    Click to add JPEG file



                                                          Added Appendix
                                                          D, Pages 25-32




                                                          Added Appendix C,
                                                          Pages 23-24




                                   61
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report




                    Click to add JPEG file




                                   62
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report




                    Click to add JPEG file




                                   63
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report
                                                            Final Report
                                                             Reference




                                                          Page 21




                    Click to add JPEG file




                                   64
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report
                                                            Final Report
                                                             Reference




                                                          Page 10




                    Click to add JPEG file




                                                          Revised, Page 10,
                                                          25




                                   65
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report
                                                            Final Report
                                                             Reference




                                                          Page i, 5




                    Click to add JPEG file
                                                          Page 2




                                                          Added, Page 7




                                   66
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report




                    Click to add JPEG file




                                   67
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report
                                                            Final Report
                                                             Reference




                    Click to add JPEG file




                                                          Revised, Page i, 5,
                                                          Added, Page 26




                                                          Revised, Page 27




                                   68
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report
                                                            Final Report
                                                             Reference




                                                          Revised, Page 27




                    Click to add JPEG file




                                   69
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report
                                                            Final Report
                                                             Reference




                    Click to add JPEG file

                                                          Page 27




                                   70
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report
                                                            Final Report
                                                             Reference




                    Click to add JPEG file




                                                          Page 27




                                   71
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report
                                                            Final Report
                                                             Reference




                                                          Revised, Page 27




                    Click to add JPEG file

                                                          Revised, Page 27




                                                          Deleted


                                                          Deleted




                                   72
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report
                                                            Final Report
                                                             Reference




                    Click to add JPEG file




                                                          Pages 2-3




                                   73
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report




                    Click to add JPEG file




                                   74
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Initial Draft Report




                    Click to add JPEG file




                                   75
Special Assistant to the Secretary of Defense for White 

House Liaison Comments on the Revised Draft Report





                     Click to add JPEG file




                                    76
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                    Click to add JPEG file

                                                          Page 21




                                   77
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                    Click to add JPEG file




                                                          Pages 25-28




                                   78
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                                                          Page 1, third
                                                          paragraph



                                                          Revised, Page 25




                                                          Page 31




                    Click to add JPEG file




                                                          *Not included in
                                                          the comments as
                                                          these were
                                                          additional audit
                                                          information.




                                   79
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                                                          *See initial
                                                          comments of
                                                          Special Assistant
                                                          for White House
                                                          Liaison.

                                                          Revised Page 25

                                                          *See initial
                                                          comments of
                                                          Special Assistant
                                                          for White House
                                                          Liaison.




                    Click to add JPEG file

                                                          Revised, Page 1




                                                          Revised, Page 31




                                                          Deleted




                                   80
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                                                          Deleted




                                                          Revised
                                                          Appendix C, Pages
                                                          23-24




                    Click to add JPEG file




                                                          Revised, Page 31




                                   81
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                                                          Revised, Page 11


                    Click to add JPEG file



                                                          Revised
                                                          Appendix D, Pages
                                                          25-32




                                   82
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                                                          Pages 29-31




                    Click to add JPEG file
                                                          Deleted




                                   83
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                                                          Deleted




                    Click to add JPEG file
                                                          Appendix E, Page
                                                          33




                                                          Revised, Page i,
                                                          opening paragraph




                                                          Page 19




                                   84
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                                                          Page 1, paragraph
                                                          4


                                                          Deleted




                                                          Page 3, paragraph 2




                    Click to add JPEG file



                                                          Page 5, paragraph
                                                          2


                                                          Page 28, paragraph
                                                          3




                                   85
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                                                          Revised, Page 7




                                                          Revised, Page 17



                                                          Pages 25-26
                    Click to add JPEG file
                                                          *Not included
                                                          because it is
                                                          additional audit
                                                          information.

                                                          *Not included
                                                          because it is
                                                          additional audit
                                                          information.

                                                          *Not included
                                                          because it is
                                                          additional audit
                                                          information.
                                                          *Not included
                                                          because it is
                                                          additional audit
                                                          information.
                                                          *Not included
                                                          because it is
                                                          additional audit
                                                          information.




                                   86
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report

                                                            Final Report
                                                             Reference




                                                          Revised, Page 3




                    Click to add JPEG file

                                                          Revised, Page 7




                                                          Revised, Pages
                                                          29-31




                                   87
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                                                          Revised, Pages
                                                          27-31


                    Click to add JPEG file




                                                          Page 17, bullets 3
                                                          &5




                                   88
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                                                          Revised, Page 17

                                                          Revised, Pages
                                                          17-18




                    Click to add JPEG file




                                                          Deleted




                                   89
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                                                          Deleted




                                                          Page 30, bullet 2


                    Click to add JPEG file




                                   90
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                    Click to add JPEG file



                                                          Page 29




                                   91
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                                                          Page 29
                    Click to add JPEG file


                                                          Revised, Page 29




                                   92
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                    Click to add JPEG file




                                                          Pages 29-30




                                   93
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                    Click to add JPEG file

                                                          Page 30




                                   94
Special Assistant to the Secretary of Defense for White 

House Liaison Comments on the Revised Draft Report





                     Click to add JPEG file




                                    95
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                                                          Page 25




                    Click to add JPEG file




                                   96
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                                                          Revised, Page 11




                                                          Deleted




                    Click to add JPEG file




                                   97
Special Assistant to the Secretary of Defense for White
House Liaison Comments on the Revised Draft Report
                                                            Final Report
                                                             Reference




                                                          Deleted




                                                          Page 1




                    Click to add JPEG file




                                   98
Special Assistant to the Secretary of Defense for White 

House Liaison Comments on the Revised Draft Report





                     Click to add JPEG file




                                    99
